HHS/OIG, Audit -"Managed Care Family Planning Claimed by Missouri,"(A-07-04-01004)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Managed Care Family Planning Claimed by Missouri," (A-07-04-01004)
January 12, 2005
Complete
Text of Report is available in PDF format (128 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit
was to determine if Missouri’s methodology to claim Medicaid family
planning costs under managed care complied with Federal laws and regulations.  We
found that Missouri’s methodology
for identifying family planning generally complied with Federal laws and
regulations in place during the audit period.  Therefore, we have no
recommendations for corrective actions.